No. 20-815

In the Supreme Court of the United States
IN RE: TIMOTHY KING, ET AL., PETITIONERS
v.
GRETCHEN WHITMER, ET AL.
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE SIXTH CIRCUIT
CERTIFICATE OF COMPLIANCE
Attorney for Respondents hereby certifies that the foregoing Brief in
Opposition complies with the type-volume limitation of Supreme Court Rule
33.1(g)(ii), in that the word-processing system used to prepare the brief indicates that
the brief contains 7,443 words.
Respectfully submitted,
Dana Nessel
Michigan Attorney General
/s/ Fadwa A. Hammoud
Fadwa A. Hammoud
Solicitor General
Counsel of Record

Dated: JANUARY 2021

Heather S. Meingast
Erik A. Grill
Assistant Attorneys General
Civil Litigation, Employment &
Elections Division
Attorneys for Respondents

